No. 19-835
In the

Supreme Court of tlje ®niteb ^tates^
VALERO ENERGY CORPORATION AND
AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,
Petitioners,
V.

ENVIRONMENTAL PROTECTION AGENCY,
Respondent.
CERTIFICATE OF SERVICE
I, Matthew E. Price, hereby certify that I am a member of the Bar of this Court, and
that I have this 29th day of January 2020, caused a copy of the letter notice of intent not
file a brief at the certiorari stage of the case to be served via US mail, on the following:
LeAnn M. Johnson
Perkins Coie LLP
700 Thirteenth Street, NW
Suite 600
Washington, DC 20005-3960
(202) 654-6209
Counsel for Alon Refining Krotz Springs,
Inc.; American Refining Group, Inc.;
Calumet Specialty Products Partners,
L.P.; Coffeyville Resources Refining &
Marketing, LLC; Ergon Refining, Inc.;
Ergon-West Virginia, Inc.; Hunt Refining
Company; Lion Oil Company; Philadelphia
Energy Solutions Refining and Marketing
LLC; Placid Refining Company LLC;
U.S. Oil & Refining Company;
Wynnewood Refining Company, LLC;
Wyoming Refining Company

Warren R. Neufeld, Esq.
7191 S. Locust Place
Centennial, CO 80112
(303)549-1160
Counsel for Wan^en R. Neufeld
Seth Paul Waxman
Wilmer Cutler Pickering Hale and
Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006-1420
(202) 663-6800
Counsel for Biotechnology
Innovation Organization;
Growth Energy

Robert Allen Long, Jr.
Covington & Burling LLP
One City Center
850 Tenth Street, NW
Washington, DC 20001-4956
(202) 662-5612
Counsel for American Petroleum Institute

Bryan M. Killian
Morgan, Lewis & Bockius LLP
llllPennsylvania Avenue, NW
Washington, DC 20004
(202) 739-000
Counsel for National Biodiesel
Board

Meghan E. Greenfield
U.S. Department of Justice
Environment and Natural
Resources Division
PO Box 7611, Ben Eranklin Station
Washington, DC 20044-7611
(202) 514-2795

Devorah Ancel
Sierra Club
6406 North IH-35, Suite 1806
Austin, TX 78752
(415) 845-7847
Counsel for Gulf Restoration
Network; Sierra Club

Hon. Noel Francisco
Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
Counsel for Environmental Protection Agency

Matthew W. Morrison
Pillsbury Winthrop Shaw
Pittman LLP
1200 Seventeenth Street, NW
Washington, DC 20036
(202) 663-8036
Counsel for Renewable Fuels
Association

Suzanne Murray
Haynes & Boone, LLP
2323 Victory Avenue, Suite 700
Dallas, TX 75219
(214) 651-5697
Counsel for Small Retainers Coalition

Evan Young
Baker & Botts L.L.P.
98 San Jacinto Boulevard
Suite 1500
Austin, TX 78701-4078
Counsel for Valero Energy Corp.

Richard Moskowitz
American Fuel & Petrochemical Manufacturers
1800 M Street, NW
Suite 900 North
Washington, DC 20036
Counsel for American Fuel &
Petrochemical Manufacturers

Matthew E. Price
2

